                       Department of the Interior
                       Office of Inspector General




Irrigation in Colorado River Basin

Failure to
Implement
Water Transfer
Process Leaves
BOR Unprepared
To Facilitate                          Hoover Dam          Phoenix, Arizona
                                                                    Phoenix, Arizona
Transfers                                Hoover Dam
                                              Hoover Dam




        Municipal and Industrial
               Water Transfers
                                     Bureau of Reclamation

                             Report No. W-FL-BOR-0121-2002
                                             November 2003
                         United States Department of the Interior

                                           Office of Inspector General
                                                Western Region
                                                    Federal Building
                                             2800 Cottage Way, Suite E-2712
                                                Sacramento, California 95825



                                                                                      November 26, 2003
                                                                                                   7430
Memorandum

To:           Assistant Secretary for Water and Science

From:         Michael P. Colombo
              Regional Audit Manager

Subject:      Municipal and Industrial Water Transfers, Bureau of Reclamation
              (Report No. WFLBOR01212002)

         Attached is our final report on the Bureau of Reclamation’s (BOR) process for
transferring water from agricultural to municipal and industrial (M&I) use, our third report on
this issue since 1992. The history of our reporting has been long and contentious, with BOR’s
prior agreements to implement recommendations and our subsequent follow-up reports revealing
that it had not done so.

       Over the past decade, transfers have assumed ever greater significance as an acceptable
and desirable means of reallocating water, primarily from agricultural to M&I use. In 1997, to
resolve the recommendations in our 1992 report, the Assistant Secretary for Policy, Management
and Budget recommended five action items. These action items, along with Recommendation 1
in our March 2000 report, laid the groundwork for a proactive water transfer process. Based on
BOR’s assurances that these actions would be implemented, the Assistant Secretary, with our
concurrence, closed the recommendations in our March 2000 report in May of 2001.

        Our current review, however, revealed that BOR did not live up to these assurances and
has not, in fact, taken the actions necessary to implement a proactive water transfer process.
Further, BOR’s September 24, 2003 response to this, our third report, is a clear indication that it
does not intend to do so. We are especially concerned that BOR did not agree with the first three
recommendations of our report, since BOR had previously assured the Assistant Secretary that
these recommendations were to be implemented. BOR’s response also indicates a lack of
understanding of both the significance of water transfers and BOR’s role in Western water
management and obscures the message presented in the report. For example:

      ¾ BOR asked us to revise our report to that of a follow-up only. While the scope of any audit is at
        the sole discretion of the Inspector General, our report was, in fact, a follow-up audit. The bulk
        of our work concentrated on whether BOR had implemented the recommendations in our March
        2000 audit. In our current report, we simply restate and tailor the recommendations of the
       2000 report to provide BOR with a more efficient means of implementing a proactive water
       transfer process.

   ¾ BOR stated that we mixed issues relevant to previous audits with the Secretary’s initiative Water
     2025: Preventing Crises and Conflict in the West. Our work was done well before Water 2025
     began; we reference the initiative only to help emphasize the urgency of water problems in the
     West and the necessity of being prepared. We find it odd that BOR would hold meetings
     throughout the West this year to urge collaboration to avoid future crises and conflict while at the
     same time refuse to take actions that could help accomplish that very goal.

   ¾ BOR stated that the Assistant Secretary for Policy, Management and Budget considered BOR’s
     actions “to be sufficient to resolve the identified water transfer issues.” BOR failed to mention
     that the Assistant Secretary closed the recommendations based on BOR’s affirmation that the
     action items had essentially been completed.

   ¾ BOR stated that the General Accounting Office (GAO) concurred that BOR had met the intent of
     the audit recommendations in GAO’s 1994 report. GAO’s report recommendations, however,
     dealt only with transfer approval requirements and not with BOR establishing a collaborative
     effort with state and local users to anticipate water transfers.

         BOR also stated our report did not support that BOR’s lack of a water transfer process
constituted a material weakness under Departmental criteria. We disagree for several reasons.
First, the lack of a proactive water transfer process is a deficiency that affects BOR’s core
mission of delivering and managing water supplies in the West. As stated in the Departmental
Manual, any impairment of that mission is a material weakness. Second, without such a process,
BOR cannot meet the goals in its fiscal year 2000-2005 Strategic Plan to address the
“contemporary needs in the West” and “chart a course for the future.” In the Plan, BOR
acknowledged that its “actions are important in satisfying a range of competing water demands.”
Third, water transfers have become much more than the simple recovery of interest for water
converted to M&I. Water transfers are now increasingly recognized as one of the primary means
of managing water to avoid conflicts that are inevitable when prolonged drought and limited
supplies collide with explosive population growth. In that regard, Water 2025: Preventing
Crises and Conflict in the West specifically cites market-based water transfers as part of the “five
realities” to address “systemic water problems.” As stated in the initiative, “One of the most
important aspects of intelligent water management in the West is to have a system that allocates
available water supplies in a rational manner when there is not enough to meet all demands for
water.”

        BOR built many of the great water systems in the West and continues to manage
35 percent of the water delivered in the West. BOR will obviously continue to be a primary
player in addressing Western water needs for years to come. We believe that until BOR
implements a proactive water transfer process, it may, in effect, hinder rather than facilitate
water transfers. Accordingly, we are asking BOR to reconsider Recommendations 1, 2, 3, and 4.

        The legislation, as amended, creating the Office of Inspector General requires that we
report to the U.S. Congress semiannually on all audit reports issued, actions taken to implement
our audit recommendations, and recommendations that have not been implemented.



                                                   2
        Please provide a written response to this report by January 12, 2004. The response
should supply the information requested in Appendix 4. We appreciate the cooperation shown
by BOR staff during our review. If you have any questions regarding this report, please call me
at (916) 978-5653.

Attachment

cc:   Audit Liaison Officer, Assistant Secretary for Water and Science (MS 7428)
      Commissioner, Bureau of Reclamation (MS 7060)
      Audit Liaison Officer, Bureau of Reclamation (D 7400)




                                               3
Executive Summary
BOR Failure to Implement Water Transfer Process Leaves
the Agency Unprepared to Facilitate Transfers
               The history of the American West is written in water, and no federal agency
               has had a greater role in writing it than the U.S. Bureau of Reclamation.
                                        —The Christian Science Monitor, June 20, 2002

               The West has literally grown up around Reclamation projects—the farms,
               the cities, the way of life.
                                            —John Keys, Commissioner, Bureau of Reclamation


Water is a finite and scarce resource in
the desert landscape of the American
West. Using that resource wisely to
meet emerging and competing demands
is the primary challenge facing water
managers in the 21st century.

The last century saw the construction of
large-scale water projects that turned
much of the desert into farmland and
                                                                         Harvest from early BOR project
allowed large cities to flourish. Chief                 BOR, however, has failed  to establish
                                                                            Photo courtesy of BOR
among the builders was the Bureau of                    the process necessary to manage water
Reclamation (BOR), which was
mandated by Congress to stimulate                       BOR, however, has failed to establish
settlement of the western United States                 the process necessary to manage water
through the economic benefits provided                  transfers, which offer impressive
by irrigated agriculture.                               benefits, not only in reallocating existing
                                                        supplies to meet competing demands,
Today, BOR projects are in 17 western                   but in recovering federal costs within a
states and in essentially every major                   framework driven by market values
river basin.1 The projects supply about                 rather than by subsidies.
35 percent of all the water delivered in
the West and make BOR the West’s                        Water transfers2 (converting water from
largest water resources management                      one use to another or selling or
agency and a key player in resolving                    exchanging water among individuals or
issues of water supply and demand.                      agencies) have assumed greater and
                                                        greater significance as Western water
                                                        managers have come to agree that water
                                                        demands must be met primarily by
                                                        existing water supplies. Nearly every
1
 The 17 states are Arizona, California, Colorado,
Idaho, Kansas, Montana, Nebraska, Nevada, New
                                                        2
Mexico, North and South Dakota, Oklahoma, Oregon,         In this report we use the word “transfers” to include
Texas, Utah, Washington, and Wyoming.                   all voluntary changes in water use.


                                                    i
major river system in the West is already         When water is converted from
heavily developed and over                        agricultural to M&I use, Reclamation
appropriated, and the monetary and                law mandates that BOR take the steps
environmental cost of building new                necessary to recover the appropriate
water storage projects can be prohibitive.        interest from M&I water users. Unlike
BOR itself has acknowledged that                  irrigators, M&I water users are required
constructing any new, large-scale water           to pay all of the interest on their
storage projects is unlikely.                     construction obligations.

Most BOR transfers involve transfers              We have been concerned with the issue
from agricultural to urban or municipal           of interest recovery on these conversions
and industrial (M&I) use, which in effect         since the late 1980s. To that end, we
reallocate supplies from a subsidized             addressed this issue in an August 1992
framework to a potentially market driven          report and in a March 2000 follow-up
one. Much of the water supplied by                report. Both reports contained
BOR projects is for irrigation, which can         recommendations to assist BOR in
account for up to 90 percent of water use         effectively managing water transfers by
in some areas.                                    identifying projects that are experiencing
                                                  or will experience transfers, developing
Irrigation is heavily subsidized. Farmers         example M&I rates, and forecasting
not only receive most of the water, they          urban demand.
also pay the least for it, as a result of
subsidies established early on by                 In its response to our March 2000 report,
Congress to ensure the affordability of           BOR concurred with our
agricultural water. Farmers, for                  recommendations and outlined the
example, pay little of the federal                actions it would take for implementation.
construction investment and none of the           Please see Appendix 1 for a history of
costs of financing construction over the          audit recommendations and the status of
repayment period.                                 BOR implementation.

Dramatic population growth in the West,           Given BOR’s assurances to address the
however, is challenging the supremacy             issue of transfers in our prior reviews,
of agriculture and giving urban water             we found in our current review that BOR
users new muscle. In the last 25 years,           has made little progress. To date, BOR
the 17 western states served by BOR               has issued some policy guidelines, but
projects have been the fastest growing in         has failed to establish a process that
the United States. Most of the growth             would facilitate water transfers and
has centered around large cities, with            allow recovery of appropriate federal
86 percent of all Westerners now living           revenues.
in or near urban areas. This population
growth, coupled with environmental                In our March 2000 report, we also asked
concerns and prolonged periods of                 BOR to report its lack of procedures to
drought, has created demands that clash           identify water transfers as a material
with the status quo and necessitate               weakness in its annual assurance
flexibility in water management.




                                             ii
statements3 to the Department of the                          statements to the Department until such
Interior until such time that BOR                             time that BOR implements a process.
established such procedures. BOR has
not made such reporting.                                      In its September 24, 2003 response,
                                                              BOR strongly disagreed with our
The stakes are high for BOR, not only in                      conclusions and recommendations,
meeting urban demands and protecting                          stating that it was already facilitating
the agricultural economy, but also in                         water transfers, that broadening our
maintaining the integrity of its                              scope had confused the objective, and
leadership in Western water                                   that both the Assistant Secretary for
management. We believe it is time for                         Policy, Management and Budget (PMB)
BOR to acknowledge the urgency of                             and the General Accounting Office
establishing a process to judiciously                         (GAO) considered BOR’s actions on
manage water transfers and effect                             water transfers to be sufficient.
positive change in how water is allocated
and valued in the West.                                       We were perplexed by this response
                                                              since BOR, in effect, was disagreeing
We do not believe, however, that BOR                          with actions which it had assured PMB
can address the issue of water transfers                      were being implemented, but which this
until it realizes that our                                    review revealed had not been
recommendations should not be viewed                          implemented. The recommendations in
as stand-alone actions, but rather as parts                   this report are essentially restatements of
of an overall process for managing                            the recommendations in our March 2000
transfers. We therefore focused our                           report (Appendix 1).
report on establishing a process to
manage water transfers.                                       We believe BOR’s response relegates
                                                              BOR to a passive role in water transfers
Accordingly, we recommended that the                          and is a rejection of the proactive
Commissioner direct BOR to                                    approach needed if BOR is to be a full
(1) establish and maintain a database of                      and ready participant in future transfers.
current and potential water transfers,                        Given the urgency and magnitude of the
(2) estimate M&I water demand in major                        transfer issue, we are compelled to ask
urban areas served by BOR projects,                           BOR to reconsider all of the
(3) conduct periodic reviews of selected                      recommendations.
projects from the database to verify
water use, and (4) report its lack of a
process for water transfers as a material
weakness in its annual assurance


3
 Under the Federal Manager’s Financial Integrity Act,
each federal agency is required to prepare an annual
assurance statement on the status of its management
controls and report any substantial, or material,
weaknesses in those controls. Congress passed the
Act in 1982 to correct fraud, waste, and abuse that
were occurring because of weak controls.




                                                        iii
Contents
                                                                                               Page

           A Western Water Perspective ....................................................1
              BOR’s Role in Western Water Development ......................1
              End of Large-Scale Water Development Ushers
                 in New Water Management Paradigm...........................2

           Results of Audit: BOR Has Not Yet Implemented a Process to
           Effectively Address M&I Water Transfers ...............................5
               Establish a Database ............................................................5
               Estimate M&I Water Demand .............................................6
               Periodically Review Projects Experiencing
                Transfers to Verify Water Use..........................................7
               Report Lack of a Transfer Process as Material
                Weakness ..........................................................................8

           Recommendations......................................................................8
           BOR Response ........................................................................10
           Office of Inspector General (OIG) Reply ................................10
           References................................................................................13

           Appendices
              1 History of Audits on M&I Transfers and Status of
                 Audit Recommendations, and BOR
                 Implementation ............................................................14
              2 U.S. Drought Monitor ..................................................19
              3 Objective and Scope ....................................................20
              4 BOR Response .............................................................22
              5 Status of Audit Recommendation ................................28



           Abbreviations:
           BOR ....................................................... Bureau of Reclamation
           GAO................................................. General Accounting Office
           M&I...................................................... Municipal and Industrial
           OIG ................................................. Office of Inspector General
           PMB ........................................ Policy, Management and Budget




                                    iv
A Western Water Perspective
In the arid and semi-arid West, people         BOR’s Role in Western Water
have always competed for limited water         Development
supplies. The availability and
management of water determined the
                                               BOR’s role in the West began with
fortunes of cities and industries—where
                                               enactment of the Reclamation Act of
people would live and what enterprises
                                               1902. For the first 85 years of its
would flourish. Although the nature of
                                               history, BOR met the Congressional
conflict may have changed over the
                                               mandate of “making the desert bloom”
years, conflict remained the norm.
                                               and stimulating population growth
                                               through irrigated agriculture. BOR’s
Today, farmers, cities,
                                               massive irrigation projects allowed the
environmentalists, and Native
                                               West to flourish. Dams, reservoirs, and
Americans compete for the same limited
                                               canals transformed river basins by
supplies. As noted by Secretary of the
                                               controlling river flows and creating
Interior Gale Norton, in a speech before
                                               dependable water supplies particularly
the American Bar Association’s Annual
                                               during the hot summer months when
Water Law Conference in February 2003
                                               typically little or no rain falls throughout
(Norton 2003), “The reality that we face
                                               most of the West. Interbasin transfers
today is that in some areas of the West
                                               moved water over long distances to
there is not enough water to go around,
                                               supply areas of scarcity.
even in normal hydrological conditions.”

Explosive population growth in western
cities and unpredictable periods of
drought significantly affect already
limited supplies. Meeting water demand
and avoiding conflict among competing
uses will involve changes in the way
water is valued and divided among
users. One change is the emergence of
water markets. Another is the increasing
transfer of water from agricultural to
M&I and environmental uses.
                                                Dedication of Truckee River Diversion Dam
BOR is a principal and essential player         in 1905. The Diversion Dam was part of the
in 21st century Western water                   Newlands Project on the Carson and Truckee
management. A brief history of BOR’s            Rivers in western Nevada. The Project was
role in Western water development               one of the first projects built by BOR, with
shows why and points to the leadership          construction starting in 1903.
                                                                         Photo courtesy of BOR
required of BOR to help prevent future
water conflicts.
                                               With the advent of large-scale water
                                               systems, water was not only readily
                                               available, it was also cheap as a result of


                                           1
                             generous federal subsidies. Subsidized                               investment over the repayment period.5
                             irrigation water supported the supremacy                             Subsidized water not only supported
                             of agriculture, which drove Western                                  agriculture, it allowed people to settle in
                             economic development for most of the                                 areas where water supplies were
                             20th century. The federal subsidy for                                inadequate to sustain significant
                             irrigation has been estimated at up to                               populations. According to BOR
                             90 percent of the actual cost to provide                             Commissioner John Keys, “Our projects
                             water (Anderson and Snyder, 1997).4                                  are the center of Western settlements.
                             Irrigation and all other water uses,                                 Phoenix, Salt Lake City, Boise, Spokane
                             including M&I, are compared in                                       . . . all those cities were built around
                             Figure 1 (Goelehon, 1999).                                           Reclamation projects.”

                             Consumptive Water Use in the West                                    End of Large-Scale Water
                                                                 Irrigation      All Other
                        60                                                                        Development Ushers in New
                        50
                                                                                                  Water Management Paradigm
    Million Acre-feet




                        40
                                                                                                  By the late 1980s, assumptions
                        30
                                                                                                  governing water development and use
                        20                                                                        had dramatically changed from those of
                        10                                                                        1902. The physical locations most
                        0
                                                                                                  suited to large-scale development had
                             1960   1965   1970   1975    1980   1985         1990     1995
                                                                                                  already been used, and economic and
                                                  1960 to 1995
                                                                                                  environmental constraints for other, less
Figure 1                                                                                          favorable, locations were formidable.
                                                                                                  Many of the West’s rivers were already
                             Irrigation subsidies resulted from BOR’s                             fully allocated. In his November 2001
                             formula to allocate the costs of building                            testimony before the Senate Committee
                             and financing water projects among                                   on Environment and Public Works, Keys
                             various users. As a matter of federal                                stated, “Nearly every major river system
                             water policy, calculations were highly                               in the West – the Colorado, Columbia,
                             favorable to agriculture. Farmers paid                               Rio Grande and Missouri – is heavily
                             little of the capital investment in the                              developed and over appropriated. That
                             facilities and none of the interest                                  trend is projected to continue” (Keys
                             incurred to finance the federal                                      2001).

                                                                                                  By the late 1980s, the era of large-scale
                                                                                                  development of federally subsidized
                                                                                                  water was over. A new paradigm of
                             4
                              In the Truckee-Carson River Basins in Nevada, for
                             example, irrigators paid a little over $2.00 an acre-foot
                             of water in 1995, while the actual cost of supplying
                             the water was estimated at over $33.00 an acre-foot.                 5
                                                                                                   BOR calculated the amount of project construction
                             (An acre-foot is the amount required to cover an acre                costs allocated to agriculture and then determined the
                             of land to a depth of 1 foot or approximately 326,000                amount farmers could pay and still realize a profit.
                             gallons.)                                                            The difference between the actual amount owed by
                                                                                                  agricultural users and the amount farmers could afford
                                                                                                  to repay is eventually repaid, without interest, by
                                                                                                  project power users.


                                                                                              2
                           water management was emerging,                                        Effects of Recurring Droughts. The
                           shaped by unprecedented population                                    pressures of finding water to meet
                           growth, the realization that water was a                              increased M&I and environmental needs
                           finite and scarce resource, and the need                              are exacerbated by unpredictable and
                           to protect species, habitat, and water                                prolonged periods of drought.
                           quality and to plan for periods of                                    Currently, significant areas of the West
                           drought.                                                              are experiencing drought characterized
                                                                                                 as “extreme” (see Appendix 2). For
                           West Undergoing Explosive                                             example, in the seven states within the
                           Population Growth. Western states are                                 Colorado River Basin, 2002 rainfall was
                           the fastest growing region of the United                              the lowest ever recorded, significantly
                           States. This new population is                                        reducing the water stored in Basin
                           increasingly urban, with about 86                                     reservoirs. Between September 2001
                           percent of all Westerners living in or                                and September 2002, Lake Mead (the
                           near cities. Figure 2 shows population                                reservoir created by Hoover Dam)
                           growth since 1970 and the projected                                   dropped nearly 23 feet. Lake Powell,
                           growth through 2025 (U.S. Census                                      another Basin reservoir, dropped by
                           Bureau 2000).                                                         more than 38 feet. These reservoirs,
                                                                                                 which were designed to hold up to 4
                                   Population Growth in 17 Western States                        years of water supply, now held only a
                                                                                                 1-year supply.
                     140


                     120
                                                                                                 Emergence of Water Markets and
                     100                                                                         Water Transfers as Ways to
Millions of People




                      80
                                                                                                 Reallocate Existing Supplies and
                                                                                                 Resolve Conflicts. Given the
                      60
                                                                                                 unpredictability and severity of drought
                      40                                                                         and increasing and competing water
                      20                                                                         demands, conflict over water supplies
                                                                                                 seems inevitable. However, the past
                       0
                            1970         1980            1990              2000     2025         quarter century has seen a quiet
                                                1970 to 2025 (Projected)
                                                                                  Figure 2       revolution—the growing consensus that
                                                                                                 competing needs must be met within
                           Enactment of Environmental                                            existing supplies and that water markets
                           Legislation. Along with the growth of                                 provide the framework for solving water
                           cities has come a shift in public values—                             shortage problems and alleviating
                           an insistence on better environmental                                 conflicts among competing uses. Market
                           stewardship to protect fish and wildlife                              advocates point to the ability of markets
                           species and habitat and water quality.                                to promote sustainable economic
                           Enactment of environmental legislation,                               development by treating water as the
                           such as the National Environmental                                    scarce resource that it is.
                           Policy Act (1969), the Clean Water Act
                           (1972), and the Endangered Species Act                                Most importantly, water markets support
                           (1973), gave legal standing to                                        the reallocation of existing supplies. A
                           environmental issues.                                                 primary mechanism for such reallocation
                                                                                                 is water transfers; that is, the conversion



                                                                                             3
of water from one use to another or the                  financing costs and indeed lacked the
sale or exchange of water among                          procedures to do so. Please see
individuals or agencies. Transfers                       Appendix 1 for a summary of our prior
present opportunities to meet M&I                        audits and recommendations.
demands, bolster environmental and
recreational values, and shift water to                  BOR has issued some policies regarding
new uses. Most transfers involve                         the water transfers, beginning with a
agriculture since it continues to be the                 1988 policy for voluntary transfers and
major user of water in the West (see                     an announcement that it would facilitate
Figure 1), and an issue to be resolved is                water transfers (BOR, Policy WTR P02).
the effect of such reallocation on                       Other changes in federal water policy
agricultural production and the national                 have “loosened up” restrictions on where
economy.                                                 BOR project water could be used.
                                                         Enactment of the Central Valley Project
Water transfers have been occurring on                   Improvement Act7 in 1992, for example,
BOR projects for some time, as                           set up a potential model for facilitating
population growth has spurred                            water markets by allowing Central
increasing M&I demand. The result is                     Valley Project water to be transferred
that some project facilities originally                  outside the Central Valley. In December
constructed to provide irrigation water                  1997, then Secretary of the Interior
will provide more and more water for                     Bruce Babbitt announced that he would
M&I use. M&I water is not heavily                        allow Colorado River water to be
subsidized as irrigation supplies. M&I                   transferred between states.
users are expected to repay both the
construction investment and the interest                 Although we began our review to
costs incurred by the Government to                      determine whether BOR had
finance its investment over the                          implemented Recommendations 1 and 2
repayment period. As water is converted                  in our 2000 report, we realized that a
or transferred from irrigation to M&I                    new era of Western water management
use, Reclamation law6 requires BOR to                    was underway in which transfers would
identify and verify the changes in water                 play a primary role in reallocating
use and ensure the recovery of an                        existing supplies and avoiding conflict
equitable portion of the federal cost to                 among competing uses. We therefore
finance facilities that are now being used               reported our findings within this larger
for M&I water.                                           context. See Appendix 3 for a summary
                                                         of our audit methodology and locations
We began reviewing the issue of water                    visited.
supply conversions on BOR projects in
the late 1980s and reported on this issue
in 1992 and 2000. In both instances, we
found that BOR had not recovered


6
 Reclamation law refers to the total body of laws
                                                         7
governing the reclamation program, beginning with         The Act was Title 34 of an omnibus bill, the
the Reclamation Act of 1902 and including all laws       Reclamation Projects Authorization and Adjustment
amending and supplementing the Act.                      Act (Public Law 102-575).


                                                     4
               BOR Has Not\\\Yet Implemented a
Results of Audit:
Process to Effectively Address M&I Water
Transfers

BOR has yet to implement a process to            on the individual quantities and prices of
effectively address the issue of M&I             transfers that occurred each year. Over
transfers and actively participate in            time, such reporting would establish a
water markets. This process is based on          database of projects experiencing
prior audit reports (see Appendix 1) and         transfers. Although BOR agreed to our
on conclusions reached from our current          recommendation, it has yet to issue a
review. We believe the following steps           report on projects experiencing M&I
represent the actions BOR must take to           transfers.
establish an effective water transfer
process.                                         To establish a database and provide a
                                                 solid foundation for the rest of the
1. Establish a data base of projects             process outlined in this report, BOR
    experiencing or expected to experience       should do the following:
    transfers.
                                                 ¾ Identify major urban areas in the West
2. Estimate M&I demand in major urban              and BOR projects located in proximity
    markets near BOR projects.                     to these areas,

3. Periodically review projects                  ¾ Identify which of these BOR projects
    experiencing transfers to verify water         are experiencing water transfers now
    use.                                           and which projects are likely to
                                                   experience transfers in the future, and
To emphasize the magnitude of this
issue, we believe BOR should report its          ¾ Annually collect data on the acre-feet of
lack of a water transfer process as a              agricultural and M&I water supplied and
material weakness in its annual                    transferred for each of these BOR
                                                   projects and the rate or prices charged
assurance statements to the Department
                                                   per transfer.
until such time as BOR establishes and
implements a water transfer process.
                                                 Only after BOR establishes such a
                                                 database can it identify the major
Establish a Database                             markets that are prime candidates for
                                                 ongoing and future M&I transfers and
Without a database of the projects that          adequately implement the next step of
are experiencing or expected to                  the process: estimating M&I demand.
experience transfers, BOR cannot hope
to take any of the other steps in the
process. We therefore recommended in
our March 2000 report that BOR report



                                             5
Estimate M&I Water Demand                                    established an “ongoing effort to review,
                                                             maintain, and conduct research on M&I
To determine where water transfers are                       wholesale water pricing . . . which
and will be most necessary to fairly                         should fulfill the requirement for an
allocate water among competing                               ongoing research effort.”
interests in the West, BOR must                              We reviewed the research studies
facilitate water transfers by estimating                     referenced in the response and
M&I demand in major urban markets                            concluded that they were insufficient to
near BOR projects. To estimate this                          allow BOR to estimate the demand for
demand, BOR should conduct economic                          M&I water in major markets supplied by
studies, which, at a minimum, include                        federal projects. In addition, a BOR
the following data: (1) projected                            official in the Denver Office’s
population growth, (2) projected                             Economics Branch, which compiled the
conversions of agricultural land to urban                    review of the wholesale water pricing
use, (3) changes in cropping patterns,                       literature, told us there was “no ongoing
(4) availability of water supplies –                         effort” as stated in BOR’s response.
whether current supplies are sufficient to
ensure adequate and dependable water                         In our March 2000 report, we also
for current uses and population growth,                      recommended that BOR develop the
and (5) water rates from local water                         example rates needed for negotiations
providers operating near BOR projects.                       with local water authorities. Without
BOR must then develop project-specific                       such rates, BOR will not be ready to
example rates to use in negotiations with                    negotiate market M&I rates when
local water authorities for future water                     transfers to M&I use on specific projects
transfers or for renegotiated contracts.8                    begin to occur. M&I rates are time
                                                             sensitive and must be project specific to
In our March 2000 report, we                                 accurately reflect water market values.9
recommended that BOR estimate the                            We reviewed documents that BOR
demand for water supplied by federal                         stated contained example rates, as well
projects through economic studies.                           as the policy, theoretical background,
Although BOR concurred with our                              and methodologies for helping
recommendation, it has not conducted                         contracting officers establish example
economic studies or compiled data to                         rates to use in negotiations with local
estimate future M&I demand. BOR                              water authorities. None of the
stated it had identified “research studies                   documents had adequate example rates,
that have addressed the price elasticity of                  as follows:
demand for water at the wholesale
level.” BOR also stated it had
                                                             9
                                                              The November 13, 1997 policy memorandum states:
                                                             “The preferred base (floor) negotiation rate will be an
8                                                            M&I rate established in existing Reclamation water
  In this regard, BOR has issued two policies on water       service contracts found within the local area, provided
transfers (see Appendix 1, page 15). These policies          that the rate reasonably reflects the existing market
are Policy for Pricing Water Converting From                 price. In the event that such contracts have not been
Irrigation to Municipal and Industrial Service,              executed, then a local market M&I rate will be
November 13, 1997 and Reclamation Manual Policy              used . . . The use of either a contract or local market
#WTR P02, Voluntary Transfers of Project Water,              rate serves as a good indicator of the price buyers and
January 2001.                                                sellers are willing to pay to participate in water
                                                             conversion activities.”


                                                         6
¾ A Survey of Wholesale Water Rates in             BOR has not established a project data
    the Western United States, dated               base, it lacked the data to target its
    September 1998. This document, which           periodic reviews to those projects
    presented 1996 to 1998 wholesale water         experiencing or expected to experience
    rates for 149 water contractors in             M&I transfers.
    15 Western states, did not include
    project-specific example rates. In
    addition, we noted that the Survey has         In its first report (Report on Findings of
    not been updated, and the rate                 2001 Periodic Reviews of Water
    information is no longer timely.               Deliveries with Respect to Contract
                                                   Terms), issued in December 2001, BOR
¾ Water Prices and the Demand for                  reported on activities for 14 water
  Municipal and Industrial Water and               districts primarily for water year 2000,10
  General Findings of the Municipal                most of which provided water for
  Water Demand Literature provided                 irrigation and other purposes such as
  useful historical information, but did not       recreation, but not for M&I.
  have example rates for specific BOR
  projects.                                        We also looked at 1211 reviews
                                                   completed for 2002 that BOR provided
¾ Resource Book for Municipal and
  Industrial Water Pricing, dated October          to us during our fieldwork. We found
  2000, incorporated and expanded on the           that for 6 of the 12 districts, M&I was
  above three documents. The rates                 not a project purpose. Again BOR did
  discussed in the Resource Book,                  not target its reviews to projects that are
  however, did not correlate to specific           experiencing or expected to experience
  BOR projects on which future transfers           M&I transfers.
  were anticipated.
                                                   BOR also did not adequately verify
BOR has issued the methodologies for               water use on the 14 projects reviewed in
determining example rates, but has never           its December 2001 report. For the first
developed example rates from these                 7 periodic reviews conducted for the
methodologies. Until BOR develops and              December 2001 report, BOR did not
tests these example rates against market           report the contract quantities and the
rates charged in the area, it will not             amounts delivered. 12 BOR improved its
know whether its methodologies are                 reporting of contract and delivery data
adequate.                                          for its review of the last seven projects.
                                                   However, BOR’s procedures were not
Periodically Review Projects                       sufficient to verify the accuracy of the
Experiencing Transfers to Verify
Water Use                                          10
                                                     A water year is defined by the individual contractor
                                                   and can vary.
We recommended that BOR conduct                    11
                                                     The 12 were part of the 22 reviews planned for
periodic reviews of projects                       2002.
                                                   12
experiencing transfers from irrigation to             BOR used a standardized Checklist for Review and
M&I use to verify the quantities of water          Verification of Contractor Water Use. The Checklist
                                                   was included in the September 2000 directive from the
delivered, the amounts of water used, the          Commissioner (Periodic Review of Water Deliveries
amounts paid, and conformance of use               With Respect to Contract Terms), which directed BOR
with water contracts. However, since               regions to periodically review projects and verify
                                                   water use.


                                               7
amounts of irrigation and M&I water use                      Department of the Interior until such
reported by the water contractors. Such                      time that BOR establishes a process to
verification of water use is essential for                   collect and verify annual water use data.
the projects we believe BOR should be                        To date, BOR has not reported its lack of
targeting.                                                   a process as a material weakness.

We evaluated four of these reviews13 and                             The Future Is Now
noted that BOR officials who performed
the reviews accepted the contractor’s                           Era of Water Transfers Here
reported amounts at face value. We
found no documentation that BOR had                           In January 2003, 10 agricultural water
independently verified these amounts.                         contractors in the northern Central
                                                              Valley of California agreed to sell up to
The issue of verifying water deliveries                       205,000 acre-feet of water over the
also arose during a recent BOR audit                          2003 irrigation season to the
(see Review of Central Valley Project                         Metropolitan Water District of
Responsibilities Transferred Under                            Southern California, the largest M&I
Direct Funding Agreements Between                             supplier in California.
BOR and Three California Water
                                                              The 10 water contractors receive
Authorities, Appendix 3). We believe
                                                              irrigation water from BOR’s Central
that the quality assurance program
                                                              Valley Project, the largest water supply
recommended in that report will help                          project in the United States. Most of
BOR ensure the accuracy of the amounts                        the 205,000 acre-feet will come from
reported.                                                     idling acreages used for rice, which is a
                                                              high water-use crop.
Report Lack of a Transfer
Process as Material Weakness                                  The sale and transfer is made possible
                                                              under the Central Valley Project
BOR has yet to establish an effective                         Improvement Act, which allowed
process for managing conversions of                           Project water to be transferred for uses
water from agriculture to M&I use,                            outside the Project’s service area.
despite its agreement over 10 years ago
to do so. To underscore the gravity of
this issue, we recommended in our
March 2000 report that BOR report the                        Recommendations
lack of procedures to identify water
transfers as a material weakness in its                      By virtue of its long history in Western
annual assurance statements14 to the                         water development and the volume of
                                                             water it controls, BOR is an essential
                                                             player in helping to ensure the effective
13
   The four reviews were the reviews of the Solano
                                                             management of Western water supplies
Irrigation and Goleta Water Districts conducted by the       and the resolution of conflict among
Mid-Pacific Region and the reviews of the Wellton-
Mohawk and Mohave Valley Irrigation and Drainage
Districts conducted by the Lower Colorado Region.            management controls and report any substantial, or
14
   Under the Federal Manager’s Financial Integrity           material, weaknesses in those controls. Congress
Act, each federal agency is required to prepare an           passed the Act in 1982 to address fraud, waste, and
annual assurance statement on the status of its              abuse that were occurring because of weak controls.


                                                         8
competing uses. The era of subsidized                       vision. We therefore recommend the
water development is becoming an era of                     Commissioner take the following steps:
market-driven water supply, as stated by
Bennett Raley, the Assistant Secretary of                   1. Establish and maintain a database by
the Interior for Water and Science
(Associated Press, June 2002):                              (a) Identifying major urban areas in the
                                                            West and BOR projects located in
     We believe the best solution long-term                 proximity to these areas,
     for . . . complex situations where you’ve
     got competing demands is to let the                    (b) Identifying which of these BOR
     market work. As we look to the next
                                                            projects are experiencing water transfers
     century, that is the way . . . we foresee
     that water will be shifted from existing
                                                            now and which projects are likely to
     uses to emerging uses.                                 experience transfers in the future, and

A Department of the Interior initiative,                    (c) Annually collecting and maintaining
Water 2025: Preventing Crises and                           data on the acre-feet of agricultural and
Conflict in the West, announced in May                      M&I water transferred on each of these
2003, addressed population growth,                          BOR projects and the rates or prices
drought, water shortages, and competing                     charged per transfer.
needs. Water 2025 discussed the
inadequacy of “crisis management” in                        2. Estimate M&I water demand in major
addressing “long-term systematic water                      urban areas served by BOR projects by
supply problems” and the consequences
of failing to address the problem of                        (a) Researching factors that could affect
competing demands for a finite water                        water demand, such as expected
supply. During the summer of 2003,                          population growth, projected conversion
BOR hosted public meetings throughout                       of agricultural lands, and the adequacy
the West to discuss Water 2025.                             and availability of existing water
                                                            supplies,
BOR is aware of the changing
perspective in Western water                                (b) Gathering water rate data from local
management. Its acknowledgement that                        water agencies near BOR projects, and
it should change its mission15 and
issuance of policies regarding M&I                          (c) Developing project-specific example
water transfers are clear statements of                     rates to use when negotiating future
the need for change. We believe BOR                         water transfers with local water
must now act to bring its practices                         authorities and renegotiating existing
regarding these transfers in line with its                  contracts.

                                                            3. Conduct periodic reviews of selected
                                                            projects from the database described in
15                                                          Recommendation 1 to verify water use.
   In its Assessment ’87: A New Direction for the
Bureau of Reclamation, BOR acknowledged that its            Projects selected for review should be
“primary role as the developer of large federally           experiencing or expecting to experience
financed agricultural projects is drawing to a close”       significant conversions. This
and that it must “change from an agency based on
federally supported construction to one based on            verification includes confirming the
resource management.”


                                                        9
accuracy of water delivery amounts                     resolve the identified water transfer
against the quantities agreed upon in the              issues.”
contracts by examining metering
equipment, reviewing crop records, or             ¾Fifth, the General Accounting Office
using other indirect methods.                       (GAO) concurred that BOR had met
                                                    the intent of GAO’s recommendation
4. Report its lack of a process to manage           in its 1994 report on water transfers.
water transfers as a material weakness in
its annual assurance statements to the            BOR also stated that there were “no
Department of the Interior until it               findings in [the] report to support a
implements Recommendations 1, 2,                  material weakness designation under the
and 3.                                            Department’s criteria.”

BOR Response                                      OIG Reply

In its September 24, 2003 response,               We stand by our position that BOR
BOR strongly disagreed with our                   cannot facilitate water transfers because
conclusions and recommendations,                  it has not implemented the actions
citing the following reasons.                     recommended by the Assistant Secretary
                                                  for PMB16 and our March 2000 report to
¾First, our conclusion that BOR was not           do so. Nor has BOR proposed an
  in a position to facilitate water               effective alternative. Past BOR ability
  transfers was in error; BOR cited               to react to individual transfer proposals
  past transfer activities as evidence            does not equate to a proactive transfer
  that it did indeed facilitate transfers.        management process.

¾Second, transfers should and could not           We find BOR’s response perplexing
  be federally driven.                            because it strongly disagreed with
                                                  actions that BOR has previously assured
¾Third, broadening the scope of our               the Assistant Secretary were to be
  report beyond that of a follow-up               implemented. Based on these
  audit mixed “issues associated with             assurances, the Assistant Secretary, in
  previous audits and a new initiative            May 2001, considered BOR’s actions
  [the Department’s Water 2025] in a              sufficient to close the recommendations
  confusing manner.” BOR suggested                of our March 2000 report.
  that we “revise” the narrative of our
  report to address the original audit            Our current review, however, revealed
  objective and “delete references to             that BOR had not lived up to its
  Reclamation’s efforts under Water               assurances; that in fact it had not taken
  2025.”                                          the actions necessary to implement our

¾Fourth, the Assistant Secretary for
  Policy, Management and Budget                   16
  (PMB) considered BOR’s actions to                  In 1997, BOR agreed to implement five action
                                                  items proposed by the Assistant Secretary for PMB to
  resolve recommendations in our                  resolve the recommendations of our 1992 report.
  1992 report “to be sufficient to                These five action items were included as
                                                  Recommendation 2 of our March 2000 report.


                                             10
recommendations, including the actions           transfers and has rejected the proactive
recommended by the Assistant                     approach advocated by the Assistant
Secretary.                                       Secretary for PMB and our March 2000
                                                 report. The recommendations in this
Of the five action items that BOR stated         report defined proactive as collaborating
were implemented, it had implemented             with state and local users and having a
only the two dealing with the issuance of        process in place to anticipate transfers,
policy. BOR had not implemented the              research market conditions, and
three action items that embodied a               negotiate transfer agreements. By
proactive water transfer process. For            assuming a proactive role, BOR would
example, Action Item 1 required BOR to           be better able to effect positive
develop example rates for facilities             outcomes, rather than simply reacting to
expecting future conversions/transfers.          transfer proposals. We believe that only
BOR’s response stated: “It is not                with a proactive process can BOR truly
Reclamation’s role to anticipate where           “facilitate” the reallocation of available
transfers may occur in the future                water supplies (such as from agriculture
[emphasis added].” Action Item 3                 to municipal and industrial uses) in a
required BOR to conduct economic                 rational, orderly manner that prevents
studies and compile existing information         crisis.
to estimate the demand for M&I water in
the major markets supplied by federal            We find BOR’s advocacy of a passive
projects. BOR likewise rejected our              role in transfers disturbing. BOR
restatement of this recommendation.              manages 35 percent of water delivered in
                                                 West, and, by virtue of this fact alone,
Our recommendations did not change               BOR is and must be an active participant
the intent of the action items or                with the states and parties involved in
Recommendation 1, but simply restated            reallocating water. In assuming a
and tailored them to provide BOR with a          passive role, BOR cannot be an effective
more efficient way for implementation.           partner with these interests.
For example, to comply with
Recommendation 1, which asked BOR                Preparedness cannot be equated with
to review and verify water use on                transfers being “driven from the Federal
projects, we suggested that BOR target           level,” as stated in BOR’s response.
projects experiencing or anticipating            Regardless of how BOR defines its role,
transfers with significant impact, rather        it must be an informed and results-
than accumulating data on all projects           oriented player. BOR cannot effectively
without regard to whether transfers              partner or collaborate with state and
would take place. We therefore restated          local interests if it waits until water
and provided additional information on           transfer proposals are received to gather
the five action items recommended by             the information essential to completing
the Assistant Secretary and on                   transfers. Lacking timely and essential
Recommendations 1 and 3 of the 2000              information, BOR is not in a position to
report (Appendix 1).                             address the inevitable water supply
                                                 challenges and conflicts in the West.
BOR’s response, in effect, affirms that
BOR prefers a passive role in water



                                            11
BOR is adept at establishing policies;                        accomplishing the work outlined in the
witness its implementation of the two                         [Department’s] Strategic Plan.”
action items that required development
of policy and its development of a water                      We fail to see how BOR can effectively
transfer approval guidance in response to                     address the “contemporary needs in the
the 1994 GAO report. However, such                            West” and “chart a course for the future”
policies provide only a general                               without the proactive water transfer
framework and are not an established set                      process recommended in our report.
of procedures to implement a proactive                        Third, water transfers have become
water transfer process BOR-wide. For                          much more than the simple recovery of
example, GAO’s recommendation dealt                           interest for water converted to M&I.
only with transfer approval                                   Rather, water transfers are increasingly
requirements: that is, what laws would                        recognized as one of the primary means
have to be satisfied, what contracts                          of managing water to avoid conflicts that
would need amending, and what                                 are inevitable when prolonged drought
environmental requirements must be                            and limited supplies collide with
met. While we agree that these approval                       explosive population growth. The
requirements are essential to react to                        Departmental initiative Water 2025:
proposed water transfers, they do not                         Preventing Crises and Conflict in the
embody establishing a collaborative                           West specifically cites market-based
effort to anticipate water transfers.                         water transfers as part of the “five
                                                              realities” to address in systemic water
BOR’s failure to establish a proactive                        problems.
process constitutes a material weakness
for several reasons. First, the lack of                       BOR’s intransigence in equating
such a process is a deficiency that affects                   framework and policy with process and
BOR’s core mission of delivering and                          in refusing to be proactive limits its
managing water supplies in the West.                          preparedness and by extension its ability
As stated in the Departmental Manual,                         to effectively manage water and
an impairment of that mission is a                            transfers.
material weakness.17 Second, as stated
by BOR,18 it has an “opportunity to                           It is imperative that BOR view our
reexamine its role in addressing                              recommendations as part of an overall
contemporary needs in the West and                            process to manage water transfers, not as
chart a course for the future.                                stand-alone actions. Given the urgency
Reclamation’s actions are important in                        and significance of the water transfer
satisfying a range of competing water                         issue, we are asking that BOR reconsider
demands. . . By setting goals and targets                     Recommendations 1, 2, 3, and 4 and
to accomplish these actions,                                  provide the information requested in
Reclamation can be held accountable for                       Appendix 5.



17
   340 DM 2.7f(3)(c) which elevates to the level of
material weakness conditions that significantly impair
the fulfillment of the Department or Bureaus’ mission.
18
   Bureau of Reclamation, Strategic Plan, Fiscal Years
2000-2005.


                                                         12
References

Anderson, Terry L. and Snyder, Pamela
   S. February 1997. Priming the
   Invisible Pump, Political Economy
   Research Center Policy Series, Issue
   No. PS-9.

Associated Press. June 18, 2002. “Has
   the Bureau of Reclamation Met the
   Needs of the Changing West?”

BOR. Reclamation Manual/Policy
  WTR P02, “Voluntary Transfers of
  Project Water.”

Goelehon, Noel R. August 1999.
   “Water Markets, Implications for
   Rural Areas of the West,” Rural
   Development Perspectives, Volume
   14, No. 2, Economic Research
   Service, U.S. Department of
   Agriculture.

Keys, John, Commissioner, Bureau of
   Reclamation. November 14, 2001.
   Testimony in Oversight Hearing on
   Water Supply and Water Resources
   before the Senate Committee on
   Environment and Public Works.

Norton, Gale, Secretary of the Interior.
   February 2003. Speech before the
   American Bar Association’s Annual
   Water Law Conference.

U.S. Census Bureau, Census 2000.




                                           13
Appendix 1
History of Audits on M&I Transfers and
Status of Audit Recommendations and
BOR Implementation
August 1992 Report                                March 2000 Report

We reported on the issue of M&I                   Our March 2000 report Followup of
transfers in our August 1992 report               Recommendations Concerning
Repayment of Municipal and Industrial             Repayment of Municipal and Industrial
Water Supply Investment Costs, Bureau             Water Supply Investment Costs, Bureau
of Reclamation (No. 92-I-1128). At that           of Reclamation (No. 00-I-270) reported
time, we were concerned primarily with            that BOR had not implemented either
the recovery of federal interest costs.           Recommendation 1 or four of the five
We found that BOR was not recovering              action items. We did not evaluate
the federal cost of financing M&I water           Action Item 5 because BOR’s milestone
supply facilities primarily because BOR           of March 31, 2002 for completing this
lacked the controls to identify changes in        action item was subsequent to issuance
water use and its guidelines did not              of our report.
include provisions for interest recovery.
                                                  We noted that although BOR had stated
Of the three recommendations in our               that it would develop Reclamation
1992 report (page 15), BOR agreed only            Instructions requiring periodic reviews,
with Recommendation 1, which asked                it had not done so. A November 1994
BOR to establish internal controls to             policy memorandum from the
conduct periodic reviews of annual                Commissioner to establish procedures to
project water use to ensure that the              ensure that reviews were conducted and
quantity delivered conformed with that            water deliveries verified did not result in
specified in the contracts. We                    the development of such procedures.
subsequently referred Recommendations             Instead BOR regional offices offered a
2 and 3 to the Assistant Secretary for            variety of other procedures for review
Policy, Management and Budget (PMB)               and verification that did not meet the
for resolution.                                   intent of the Commissioner’s
                                                  memorandum.
In July 1997, the Assistant Secretary
established five action items, which              We again made recommendations to
BOR agreed to implement in lieu of                help BOR establish a process for
Recommendations 2 and 3.                          managing M&I transfers. We modified
                                                  Recommendation 1 of our 1992 report
                                                  and included completion of the five
                                                  action items as Recommendation 2.




                                             14
To underscore the seriousness of the                            May 2001 Follow-Up Report
issue, we also included a
recommendation (No. 3) that BOR                                 An Audit Followup Report (No. 01-I-
report its lack of adequate procedures to                       357), issued in May 2001, followed up
identify water conversions as a material                        on the status of selected outstanding OIG
weakness until it had implemented                               report recommendations for the 6-month
Recommendation 1.                                               period ending December 31, 2000. We
                                                                reported Recommendations 1 and 3 as
In its response to our March 2000 report,                       implemented based on BOR’s proposed
BOR agreed “in principle” with the                              cycle of field reviews of selected
desirability of implementing                                    projects. Our current review found that
Recommendation 1 and concurred with                             BOR had not in fact implemented our
Recommendations 2 and 3. Based on                               recommendation. We have therefore
BOR’s response, we considered the                               restated these recommendations in our
recommendations resolved and referred                           current review (see page 17).
them to the Assistant Secretary for PMB
for tracking of implementation.


                        History and Status of Audit Recommendations


   August 1992 Audit Report
               Recommendations                      BOR Response           OIG Action          PMB Action

   1. Establish internal controls requiring         Concurred          Referred to PMB for   Determined that
   periodic reviews of annual project water use                        tracking of           recommendation
   to ensure that the quantity delivered                               implementation        was implemented
   conforms with that specified in the contracts.

   2. Review Bureau guidelines to provide for       Did Not            Referred to PMB for   Replaced
   the Government to recover an equitable           Concur             resolution            recommendation
   share of its financing costs incurred from the                                            with five action
   date of project completion through the date                                               items that BOR
   the water use changed from irrigation                                                     agreed to implement
   purposes to M&I purposes.

   3. Compute and recover the Government’s          Did Not            Referred to PMB for   Replaced
   financing costs on the 11 projects included in   Concur             resolution            recommendation
   our review and on any other projects where                                                with five action
   changes in water use have occurred, as                                                    items that BOR
   identified through implementation of                                                      agreed to implement
   Recommendation 1.




                                                        15
March 2000 Follow-Up Audit Report


We reported that BOR had not implemented any of the recommendations in the August
1992 report and made the following three new recommendations.


           Recommendations                     BOR Response       OIG Action          PMB Action

1. Establish uniform and consistent control    Concurred in   Referred to PMB for   Determined that
procedures that require periodic reviews of    principle      tracking of           recommendation
annual project water use to ensure that the                   implementation        was implemented
quantity delivered and used is in
conformance with the water contracts. These
procedures should include provisions to
collect and verify annual water use data,
determine whether the use of the water is in
accordance with contract terms, and maintain
documentation of the verifications performed
and the determinations made.

2. Complete the five action items as agreed    Concurred      Referred to PMB for   Determined that
to with the Assistant Secretary for PMB.                      tracking of           recommendation
(Action Items are listed on the following                     implementation        was implemented
page under our 2002 Review.)

3. Until Recommendation 1 is fully             Concurred      Referred to PMB for   Determined that
implemented, report BOR’s lack of adequate                    tracking of           recommendation
procedures to identify water conversions in                   implementation        was implemented
BOR’s annual assurance statement on
management controls as a material weakness
under the Federal Manager’s Financial
Integrity Act.




                                                    16
Status of March 2000 Recommendations Based on Findings of This Report


        Recommendation/Action Item                     Implemented         Not Implemented                   Comment
                                                                                    X
1. Establish uniform and consistent control                               BOR issued policy        Recommendation 1
procedures that require periodic reviews of annual                        requiring periodic       corresponds to
project water use to ensure that the quantity                             reviews, but its         Recommendation 3 of this
delivered and used is in conformance with the                             December 2001            report, which asks BOR not
water contracts. These procedures should include                          report did not comply    only to periodically review
provisions to collect and verify annual water use                         with the intent of the   projects experiencing transfers
data, determine whether the use of the water is in                        recommendation.          but also to target its reviews.
accordance with contract terms, and maintain                                                       Recommendation 3 supersedes
documentation of the verifications performed and                                                   Recommendation 1 of the
the determinations made.                                                                           March 2000 report.

2. Complete the five action items agreed to with the Assistant Secretary for PMB, as follows:
                                                                                    X
Action Item 1. Issue policy guidance to the                             BOR issued                 Recommendation 2(c) of this
regions and develop example rates for facilities                        methodologies for          report supersedes this action
expecting future conversions/transfers.                                 example rates, but did     item.
                                                                        not develop any rates to
                                                                        test its methodologies.
                                                                                    X
Action Item 2. Provide the Assistant Secretary for                      BOR stated that its        Recommendation 1 of this
Water and Science with an annual report on the                          December 2001 report       report supersedes this action
individual quantity and prices of the transfers and                     implemented this action    item.
conversions that occurred during the year.                              item, but the report did
                                                                        not address projects
                                                                        experiencing transfers.
                                                                                    X
Action Item 3. Conduct economic studies and                             BOR has not                Recommendation 2(a) of this
compile existing information to estimate the                            implemented this action    report supersedes this action
demand for M&I water in the major markets                               item.                      item.
supplied by federal projects. Information will be
distributed to the regions to be used in developing
pricing policies for water converted or transferred
from agriculture to M&I uses.

Action Item 4. Issue guidance regarding the                 X*                                     BOR issued policy on this
incorporation of contract language to provide for                                                  action item. See Note*.
the periodic reallocation of costs based on current
water use at the time and for rate review at 5-year
intervals.

Action Item 5. Review water transfer guidelines            X**                                     BOR issued policy on this
and determine if additional steps are required to                                                  action item. See Note **.
facilitate voluntary transfers of water.
                                                                                  X                Based on the significance of
3. Until Recommendation 1 is fully implemented,                         BOR has not                the issue, we reinstated
report BOR’s lack of adequate procedures to                             implemented this           Recommendation 3 as
identify water conversions in BOR’s annual                              recommendation.            Recommendation 4 of this
assurance statement on management controls as a                                                    report and asked BOR to report
material weakness under the Federal Manager’s                                                      its lack of procedures as a
Financial Integrity Act.                                                                           material weakness until it
                                                                                                   implements the entire transfer
                                                                                                   and verification process
                                                                                                   outlined in Recommendations
                                                                                                   1, 2, and 3 of this report.



                                                                  17
Notes:

 * In its response to Action Item 4, BOR incorporated in its November 13, 1997 Policy for Pricing Water
Converting From Irrigation to Municipal and Industrial Service a requirement to review water rates at 5-
year intervals. In January 2001, BOR issued Reclamation Manual Policy #WTR P02, Voluntary Transfers
of Project Water, which provides for recovery of an equitable share of federal financial costs attributable to
water supplies converted from irrigation to M&I use. In this regard, we believe BOR should enforce its
policies on water transfers (see Appendix 1, page 15).

** BOR met the intent of Action Item 5 by issuing its October 2000 Resource Book for Municipal and
   Industrial Water Pricing, which included three policies addressing water transfers:
   (1) WTR P02, Voluntary Transfers of Project Water,
   (2) WTR P03, Prohibition on Future Contracts for the Sale or Use of Project Water or Surplus
                 Project Water Pursuant to the Warren Act of 1911, and
   (3) WTR P04, Use of Excess Capacity in Reclamation Projects for the Impoundment, Storage, and
                 Carriage of Non-Project Water.




                                                     18
     Appendix 2




19
Appendix 3
Objective and Scope
The objectives of our audit were to                         use. We also reviewed contracts,
determine whether BOR had taken the                         legislation, and other documents to
actions planned to implement                                determine whether both irrigation and
Recommendations 1 and 2 in our March                        M&I use was authorized and whether
2000 report and whether any new                             contractors were being charged the
recommendations were warranted.                             applicable M&I water rates for
Although we began our review as a                           converted water.
follow-up, we realized that a new era of
Western water management was                                We conducted our audit from September
underway in which transfers would play                      2002 through January 2003 in
a primary role in reallocating existing                     accordance with the Government
supplies and avoiding conflict among                        Auditing Standards, issued by the
competing uses. We therefore                                Comptroller General of the United
conducted our review within this larger                     States. Accordingly, we included such
context.                                                    tests of records and other auditing
                                                            procedures that were considered
To accomplish our objectives, we                            necessary under the circumstances. We
evaluated the actions taken by BOR to                       also reviewed the Department of the
implement the recommendations in our                        Interior’s Reports on Accountability for
March 2000 report and other actions                         fiscal years 2000 and 2001, which
necessary to establish an effective water                   included information required by the
transfer process. We also interviewed                       Federal Manager’s Financial Integrity
officials from BOR’s Denver Office and                      Act, and BOR’s annual assurance
selected regional and area offices.                         statements on management controls for
                                                            fiscal years 2000 and 2001. We
As part of our evaluation, we reviewed                      determined that no material weaknesses
the 14 periodic review reports prepared                     were reported that directly related to the
by BOR for 2001.19 We analyzed the                          objective and scope of our audit.
reviews of the Solano Irrigation and
Goleta Water Districts conducted by the                     We also evaluated BOR’s system of
Mid-Pacific Region and the reviews of                       internal controls related to our audit
the Wellton-Mohawk and Mohave                               objective and found that BOR had not
Valley Irrigation and Drainage Districts                    established sufficient procedures to
conducted by the Lower Colorado                             identify conversions of irrigation water
Region. In addition, we reviewed                            to M&I use. In addition, the two regions
various types of reports, such as water                     we visited did not have systems in place
delivery and crop reports for these four                    to verify water delivery reports received
projects for fiscal years 1992 through                      by BOR. These internal control
2000 to identify conversions to M&I                         weaknesses are discussed in the Results
                                                            of Audit section of this report. Our
                                                            recommendations, if implemented,
19
  We also reviewed reports for 12 of the 22 entities
                                                            should improve the internal controls in
BOR scheduled for review in 2002.                           these areas.


                                                       20
Prior Audits                                     Locations Visited or Contacted

In addition to our 1992 and 2000 reports                     Office                       Location
on M&I transfers, we issued a report            Office of Assistant Secretary for   Washington, D.C.
related to BOR controls over ensuring           PMB*
the accuracy of water deliveries in              Office of Policy Analysis*
September 2002.                                 BOR Office of Policy                Washington, D.C.

This report Review of Central Valley            BOR Water Contracts &               Lakewood, Colorado
                                                Repayment Office
Project Responsibilities Transferred
Under Direct Funding Agreements                 Mid-Pacific Regional Office         Sacramento, California
Between BOR and Three California                 South Central California Area      Fresno, California
                                                   Office
Water Authorities (No. 2002-I-0052)
stated that neither BOR nor the three           Lower Colorado Regional Office      Boulder City, Nevada
Water Authorities could verify the               Yuma Area Office*                  Yuma, Arizona
amounts of water delivered and ensure           Great Plains Regional Office*       Billings, Montana
the accuracy of the amounts reported.            Oklahoma-Texas Area Office*        Oklahoma City,
                                                                                    Oklahoma
We identified actions that BOR could            Upper Colorado Regional Office      Salt Lake City, Utah
take to verify its water deliveries and          Provo Area Office                  Provo, Utah
recommended that BOR, in conjunction
                                                Pacific Northwest Regional          Boise, Idaho
with the Water Authorities, establish a         Office*
quality assurance program to ensure the          *Offices Contacted only
integrity of water measurement
activities.

BOR concurred with recommendations
to establish a quality assurance program
to ensure the integrity of water
measurement activities. According to
BOR, the target date for implementing
the program is September 30, 2003.




                                           21
                        United States Department of the Interior                             Appendix 4
                                              BUREAU OF RECLAMATION
                                                Washington, D. C. 20240
IN REPLY REFER
       TO:

 D-7400                                     SEP 2 4 2003
 ADM-8.00


                                            MEMORANDUM


 To:             Office of Inspector General
                  Attention: Western Region, Regional Audit Manager

 Through: John W. Keys, I I
           Commissioner

 From:           Michael R. Gabaldon
                 Director, Policy, Management, and Technical Services

 Subject: Draft Audit Report on Municipal and Industrial Water Transfers (
           Assignment No. W-FU-BOR-0 121-2002)

 We appreciate the opportunity to review and comment on the draft audit report titled Municipal
 and Industrial Water Transfers. Attached is the Bureau of Reclamation's response to the
 recommendations as stated in the draft report.

 Overall, Reclamation strongly disagrees with the draft audit report's conclusions that our water
 transfer process does not put Reclamation in a position to facilitate water transfers and to exert the
 leadership expected of us. Reclamation does facilitate water transfers as evidenced by past
 transfer activities, but in doing so must consider both state and Federal law. This follows
 Reclamation law as directed in Section 8 of the Reclamation Act of 1902. Furthermore, as stated in
 Water 2025: Preventing Crises and Conflict in the West, "Principles of Federalism and fiscal
 realities make it clear these decisions cannot and should not be driven from the Federal level."
 Reclamation questions why the complex relationship among state laws, Federal laws, and contract
 provisions associated with water transfers is neither recognized nor considered in the subject draft
 audit report.

 The Office of Inspector General's (OIG) objective at the beginning of the review was to follow up on
 actions required in previous audit recommendations from the Follow-up of Recommendations
 Concerning Repayment of Municipal and Industrial Water Supply Investment Costs audit report
 issued on March 31, 2000. During the review process, the scope of the audit was broadened to
 include changes in water use and water transfers as the primary means of reallocating existing
 water supplies. As a result, the audit findings mix issues associated with previous audits and a
 new Reclamation initiative in a confusing manner. Specifically, the report places an emphasis on
 compliance with Water 2025. This is a recent effort by Reclamation



                                   A Century of Water for the West
                                             1902-2002
                                              22
                                                                                                            2

which is still being developed and implemented in the initial stages. It is premature for the OIG to
have focused on portions of this developing effort. Reclamation suggests that the narrative of
the draft audit report be revised to address the original objective of the audit and delete references to
Reclamation's efforts under Water 2025.

Reclamation's policies,directives, and standards on voluntary transfers of project water,
development of example rates for facilities expecting future conversions/transfers, and
performance of comprehensive district water reviews were initiated and completed at the direction
of and in cooperation with the Office of Policy, Management and Budget (PMB). These actions
were documented in PMB's resolution of the OIG recommendations issued in the 1992 audit report
titled Repayment of Municipal and Industrial Water Supply Investment Costs, Bureau of
Reclamation. PMB considers Reclamation's actions to be sufficient to resolve the identified water
transfer issues.

Additionally, the General Accounting Office (GAO) performed an audit and issued its report in
1994, Water Transfers: More Efficient Water Use Possible, If Problems Are Addressed. GAO
recommended that Reclamation ". . . clarify the procedures and approval requirements for transfers,
including when contracts would have to be amended, how the rates charged for transferred water
will be determined, and what third-party concerns must be addressed from the Federal perspective."
To address GAO's recommendation, a team was formed with representation from Reclamation's
regional offices, the Commissioner's Office, the Office of the Solicitor, and PMB. This team
thoroughly examined Reclamation's role in transfers from both a policy and legal perspective.
Directives and standards for "Voluntary Transfers of Project Water" were developed and issued
by Reclamation in January 2001. Subsequently, Reclamation received notification from the
Department that GAO concurred that Reclamation had met the intent of the audit recommendation.

If you need further information, please contact Reclamation's Audit Liaison Officer,
Tom Lab, at 303-445-3436.

Attachment

cc: Assistant Secretary - Water and Science
       Attention: Olivia Ferriter




                                                       23
                                      Bureau of Reclamation
                     Office of Inspector General (OIG) Draft Audit Report
             Municipal and Industrial (M&I) Water Transfers, Bureau of Reclamation
                           (Assignment No. W-FU-BOR-0 121-2002)
                                         September 2003

Recommendation 1.A

Establish and maintain a database by: Identifying major urban areas in the West and
BOR projects located in proximity to these areas.

       Response:

      Concur. Reclamation will establish and maintain a database which will identify major
      urban areas in the West and Reclamation projects located in proximity to these areas.
      During the initial implementation of Water 2025, Reclamation identified the major urban
      areas in the West as a part of our collaboration efforts. The sites are identified, but not
      currently in a database.

      The responsible official is the Director, Office of Program and Policy Services. The target
      date for establishing a database that identifies major urban areas in the West and
      Reclamation projects located in proximity to these areas is September 30, 2004.

Recommendation 1.13

Establish and maintain a database by: Identifying which of these BOR projects are
experiencing water transfers now and which project may experience transfers in the future.

       Response:

      Partially Concur. Reclamation will establish and maintain a database that
      identifies Reclamation projects that are experiencing water transfers now.

       Reclamation does not agree to establish and maintain a database which identifies
       Reclamation projects that may experience transfers in the future.

       It is not Reclamation's role to anticipate where transfers may occur in the future.
       Reclamation is not the initiator of transfers; its role is to facilitate and encourage voluntary
       transfers and, as required, will prepare the necessary documents and work with the entities (
       state, Federal, private, or public) to complete a desired transfer.

       The responsible official is the Director, Office of Program and Policy Services. The
       target date for establishing a database that identifies Reclamation projects that are
       experiencing water transfers now is September 30, 2004.




                                              24
Recommendation LC

Establish and maintain a database by: Annually collecting and maintaining data on the acre-feet of
agricultural and M&I water transferred on each of these BOR projects and the rates or prices
charged per transfer.

       Response:

       Nonconcur. This information is currently available within Reclamation. Water
       transfers from agriculture to M&I that are not already provided for in a contract or that
       cross district lines require coordination among the contractor, Reclamation, and the
       state. A database would not add value to this effort.

Recommendation 2.A

Estimate M&I water demand in major urban areas served by BOR projects by: Researching
factors that could affect water demand, such as expected population growth, projected
conversion of agricultural lands, and the adequacy and availability of existing water supplies.

       Response:

       Nonconcur. Reclamation is not the controlling entity in water transfers; that is the state's
       role. Reclamation will facilitate and encourage transfers within state and Federal law, when
       requested, but it does not require transfers. It is not Reclamation's role to estimate expected
       water demands based on projected population growth, etc. Reclamation only needs
       sufficient information about local and regional water markets to allow it to negotiate with
       non-Federal entities when required. Much of this data is available from Federal and non-
       Federal data sources.

Recommendation 2.B

Estimate M&I water demand in major urban areas served by BOR projects by: Gathering water
rate data from local water agencies near BOR projects.

       Response:

       Nonconcur. Reclamation has developed a resource book for M&I water pricing. The
       purpose of this resource book is to assist in the development of prices for water converted
       from agriculture to M&I use.

Recommendation 2.C

Estimate M&I water demand in major urban areas served by BOR projects by: Developing
project-specific example rates to use when negotiating future water transfers with local water
authorities and renegotiating existing contracts.




                                                   2 25
       Response:

      Nonconcur. Reclamation believes that there are too many variables to consider for the
      development of a water conversion rate for each project. Considerations include project
      purpose, laws, whether the project is paid out or not, contract provisions, etc. Further,
      establishing a rate for each project would leave no room for flexibility or negotiation in
      establishing a rate that the Secretary of the Interior "deems proper." (Section 9(c) 1939
      Act; 53 Stat. 1194; and Act of February 25, 1920; 41 Stat. 451) Reclamation's resource
      book for M&I water pricing provides the information, where available, for market rates,
      although in some instances Reclamation is "the market."

Recommendation 3

Conduct periodic reviews of selected projects from the database described in Recommendation 1 to
verify water use. Projects selected for review should be experiencing or expecting to experience
significant conversions. This verification includes confirming the accuracy of water delivery
amounts against the quantities agreed upon in the contracts by examining metering equipment,
reviewing crop records, or using other indirect methods.

       Response:

       Complied. Reclamation will continue to conduct the district water reviews for the projects
      identified in the database as agreed in recommendation 1 to verify water use. Reclamation's
      district water reviews will select projects that are experiencing or expected to experience
      significant conversions. Reclamation's district water reviews confirm the accuracy of
      water delivery amounts agreed to in the contract in numerous ways, such as, but not limited
      to, comparison to state water records, meters, ditch rider information, individual user
      information, and in some instances, Reclamation's records of when we release water.

Recommendation 4

Report its lack of a process to manage water transfers as a material weakness in its annual
assurance statements to the Department of the Interior until it implements Recommendations 1, 2,
and 3.




                                                 3
                                            26
Response:

Nonconcur. Reclamation disagrees that it lacks a process to manage water transfers.
Reclamation is currently satisfying our oversight responsibilities given our existing
authorities. We believe our process as described, in part, in appendix 1 of the draft audit
report provides for the management of water transfers. Reclamation believes that there are
no findings in the draft audit report to support a material weakness designation under the
Department of Interior's material weakness criteria.

As addressed in our transmittal memo, GAO performed an audit of water transfers and is
satisfied that Reclamation met the intent of its audit recommendation. Reclamation's
corrective actions to address the GAO audit recommendation align with the Department's
role of serving as a facilitator and encouraging water transfers within Federal and state laws.




                                      27 4
                                                              Appendix 5
                   Status of Audit Recommendations


Recommendations        Status               Action Required

  1, 2, 3, and 4   Unresolved    Reconsider the recommendations and
                                 provide a plan identifying actions to be
                                 taken, target dates for completion, and the
                                 titles of officials responsible for
                                 implementation




                                28
How to Report Fraud, Waste, Abuse, and
Mismanagement
Fraud, waste, and abuse in Government are the concern of
everyone – Office of Inspector General staff, Departmental
employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and
abuse related to Departmental or Insular Area programs and
operations. You can report allegations to us as follows:

     Mail:      U.S. Department of the Interior
                Office of Inspector General
                Mail Stop 5341-MIB
                1849 C Street, NW
                Washington, D.C. 20240

    Phone:      24-Hour Toll Free               (800) 424-5081
                Washington Metro Area           (202) 208-5300
                Hearing Impaired                (202) 208-2420
                Fax                             (202) 208-6081
                Caribbean Field Office          (340) 774-8300
                Hawaii Field Office             (808) 525-5310

    Internet: www.oig.doi.gov/hotline_form.html
                   U.S. Department of the Interior
                    Office of Inspector General
                         1849 C Street, NW
                     Washington, D.C. 20240
                           www.doi.gov
                          www.oig.doi.gov
